No. 19-170
In the

Supreme Court of the United States
The E Company, a dissolved Illinois
corporation, T & W Edmier Corp., a dissolved
Illinois corporation, Edmier Corp., an
Illinois corporation, K. Edmier & Sons, LLC,
an Illinois limited liability company,
Thomas Edmier, Individually, William
Edmier, Individually, The William Edmier
Trust, Lake Street Realty, Inc., a dissolved
Illinois corporation and E & E Equipment
& Leasing, Inc., an Illinois corporation,
Petitioners,
v.
Trustees of the Suburban Teamsters
of Northern Illinois Pension Fund,
Respondent.
On Petition for Writ of Certiorari to the United
States Court of A ppeals for the Seventh Circuit

BRIEF IN OPPOSITION
Steven Frederick McDowell
Counsel of Record
A rnold and K adjan, LLP
35 E. Wacker Drive, Suite 600
Chicago, Illinois 60601
(312) 236-0415
sfmcdowell@hotmail.com
Attorneys for Respondent
291038

A
(800) 274-3321 • (800) 359-6859

i
PARTIES TO THE PROCEEDINGS
AND RULE 29.6 STATEMENT
All parties to the proceedings are listed in the caption.
The Trustees of the Suburban Teamsters of Northern
Illinois Pension Fund are all natural persons, no Trustee
is a corporation and there are no parent corporations or
publicly held corporations owning 10% of more interest
in any Trustee.

ii
STATEMENT OF RELATED PROCEEDINGS
The proceedings in federal trial and appellate courts
identified below are directly related to the above captioned
case in this court.
Trustees of the Suburban Teamsters of Northern
Illinois Pension Fund v. The E Company, et. al, Case
No. 1:15-cv-10323 (N.D. IL). The United States District
Court for the Northern District of Illinois entered final
summary judgment in favor of respondent on liability
on March 21, 2018, (App. C to Petition, 17a) and a final
judgment awarding respondent damages and other relief
on May 9, 2018. (App. B to Petition 8a).
Trustees of the Suburban Teamsters of Northern
Illinois Pension Fund v. The E Company, et. al, Case No.
18-2273 (7th Cir.). The Court of Appeals for the Seventh
Circuit entered judgment in this matter on January 29,
2019. (App. A to Petition, 1a). The Seventh Circuit denied
Petitioners’ request for rehearing with a suggestion for
rehearing en banc on March 4, 2019 (App. D to Petition
37a).

iii
TABLE OF CONTENTS
Page
PARTIES TO THE PROCEEDING A ND
RULE 29.6 STATEMENT . . . . . . . . . . . . . . . . . . . . . . i
STATEMENT OF RELATED PROCEEDINGS . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . v
REASONS FOR DENYING THE PETITION  . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I.

There is No Split Between Circuits Regarding
Any Question Raised in the Petition . . . . . . . . . . 3

II. The Seventh Circuit’s Decision Did Not Decide
Important Federal Questions In A Manner
In Conflict With Decisions of This Court  . . . . . . 4
A. Mull an e i s Inappl ic able t o t he
Trustees’ Notice to the Petitioners  . . . . . . . 4
B. The Standards for Notice Set Forth
i n the Seventh Ci rcu it ’s Sl otky
Decision Were Properly Applied
and Do Not Violate Due Process  . . . . . . . . . 9

iv
Table of Contents
Page
C. The Petitioners Suffered No Injury
Because the District Court Determined
t he Mer it s of T hei r Cla i m a nd
Determined That They Were Part of the
Control Group . . . . . . . . . . . . . . . . . . . . . . . . 11
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

v
TABLE OF CITED AUTHORITIES
Page
CASES
Board of Trustees of the Western Conference of
Teamsters Pension Trust Fund v.
H.F. Johnson, Inc.
830 F.2d 1009 (9th Cir. 1987)  . . . . . . . . . . . . . . . . . .  3
Board of Trustees of Trucking Employees of
North Jersey Welfare Fund, Inc.—Pension
Fund v. Canny
900 F. Supp. 583 (N.D. N.Y. 1995)  . . . . . . . . . . . . .  14
Brentwood Financial Corp. v. Western
Conference of Teamsters Pension Fund
902 F.2d 1456  . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  14
Central States Southeast and Southwest Area
Pension Fund v. Slotky
956 F.2d 1369 (7th Cir. 1992), cert. denied,
511 U.S. 1018 (1994)  . . . . . . . . . . . . . . . . . . . . passim
Concrete Pipe and Products of California, Inc. v.
Construction Laborers Pension Trust Fund
508 U.S. 602  . . . . . . . . . . . . . . . . . . . . . . . . . passim
ILGWU National Retirement Fund v.
Levy Bros. Frocks, Inc.
846 F.2d 879 (2d Cir. 1988)  . . . . . . . . . . . . . . . . . .  14

vi
Cited Authorities
Page
IUE AFL-CIO Pension Fund v.
Baker & Williamson, Inc.
788 F.2d 118 (3d Cir. 1986) . . . . . . . . . . . . . . . . . . . .  3
Jones v. Flowers
547 U.S. 220 (2006) . . . . . . . . . . . . . . . . . . . . . . . . . .  9
Marshall v. Jerrico, Inc.
446 U.S. 238 (1980) . . . . . . . . . . . . . . . . . . . . . .  5, 6, 7
Memphis Light, Gas and Water Division v.
Craft
436 U.S. 1 (1978) . . . . . . . . . . . . . . . . . . . . . . . . . . . .  9
Mennonite Board of Missions v. Adams
462 U.S. 791 (1983) . . . . . . . . . . . . . . . . . . . . . . . . . .  9
Mullane v. Central Hanover Bank & Trust Co.
339 U.S. 306 (1950) . . . . . . . . . . . . . . . . . . . . . passim
Peralta v. Heights Medical Center
485 U.S. 80 (1988)  . . . . . . . . . . . . . . . . . . . . . . .  2, 13
Tulsa Professional Collection Services v. Pope
485 U.S. 476 (1988)  . . . . . . . . . . . . . . . . . . . . . . . . .  9
Withrow v. Larkin
421 U.S. 35 (1975)  . . . . . . . . . . . . . . . . . . . . . . . . . .  5

vii
Cited Authorities
Page
STATUTES
29 U.S.C. §1301(b)(1)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
29 U.S.C. §1399(b)(1)  . . . . . . . . . . . . . . . . . . . . . . 6, 7, 8, 10
29 U.S.C. §1401(b)(1)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

1
REASONS FOR DENYING THE PETITION
SUMMARY OF ARGUMENT
There is no basis for granting the Petition for Writ of
Certiorari in this case. The Petitioners have established
no split between Circuits regarding any matters raised in
their Petition. Indeed, all Circuits have agreed with the
notice rules established in the Seventh Circuit’s decision
in Central States Southeast and Southwest Area Pension
Fund v. Slotky, 956 F.2d 1369, 1372-1375 (7th Cir. 1992),
cert. denied, 511 U.S. 1018 (1994).
Notice of Withdrawal Liability provided by the
Trustees fully accorded with the requirements of the
statute and of the Due Process clause. Under this Court’s
analysis in Concrete Pipe and Products of California,
Inc. v. Construction Laborers Pension Trust Fund, 508
U.S. 602, 617-620 (1993) the assessment of withdrawal
liability is an “enforcement” rather than “adjudicative”
proceeding. Due Process requirements are satisfied as a
result of the later adjudicative proceedings subject to Due
Process standards. While the Petitioners failed to avail
themselves of the arbitration process, which would have
been the first “adjudicative” proceeding in this matter,
the Seventh Circuit properly held that the Petitioners
were adequately notified of the District Court proceeding
which was the first adjudication in this case. In addition,
Mullane v. Central Hanover Bank & Trust Co., 339 U.S.
306 (1950), is limited to state action and “any proceeding
which is accorded finality.” Mullane, 339 U.S. at 314. A
Trustee initial determination of withdrawal liability is
an act of a private party which is not accorded finality as
it is subject to full review in arbitration and, in the event

2
arbitration is not pursued, requires a judgment of a state
or federal court in order to be accorded finality. This
contrasts with all of the cases cited by Petitioners which
involved final governmental action.
The Seventh Circuit’s analysis in Central States
Southeast and Southwest Area Pension Fund v. Slotky,
956 F.2d 1369, 1372-1375 (7th Cir. 1992), cert. denied, 511
U.S. 1018 (1994), followed by the Seventh Circuit and the
Northern District of Illinois in this case, provides the
proper standard for evaluating the adequacy of notice.
This Court denied certiorari 25 years ago in Central
States Southeast and Southwest Area Pension Fund
v. Slotky, 956 F.2d 1369, 1372-1375 (7th Cir. 1992), cert.
denied, 511 U.S. 1018 (1994), and there has been nothing
in the interim to suggest that consideration of the holding
of that case is now worthy of this Court’s consideration.
As all trades or businesses are a single employer, notice
to one entity satisfies the statutory and due process
requirements regarding notice to the employer. In
addition, as discussed above, Mullane is inapplicable to a
private Trustee assessment of withdrawal liability.
The Petitioners suffered no injury in this matter
because they were provided the opportunity to obtain a
full review of their position that they were not a trade or
business which was part of the control group of trades
or businesses liable for withdrawal liability. This case
differs from Peralta v. Heights Medical Center, 485 U.S.
80 (1988), where there was not proper notice in the judicial
adjudicative proceeding in which the determination was
made. In this case the determination was made by the
United States District Court for the Northern District
of Illinois and the Petitioners received proper notice of
that proceeding.

3
ARGUMENT
I.

THERE IS NO SPLIT BETWEEN CIRCUITS
REGARDING ANY QUESTION RAISED IN THE
PETITION.

The Petition fails to identify any split between Circuits
on any question raised in the Petition. No Court of Appeals
case is cited that decided a case differently than did the
Seventh Circuit on any of the three questions presented
in the Petition. With respect to the second question, the
Seventh Circuit’s adherence to the rule adopted in its
decision in Central States Southeast and Southwest Area
Pension Fund v. Slotky, 956 F.2d 1369, 1372-1375 (7th
Cir. 1992), cert. denied, 511 U.S. 1018 (1994), that “notice
to one is notice to all” with respect to provision of notice
to a controlled group of businesses, it should be noted
that the long standing rule in every other Circuit to have
decided that issue is also that notice to one member of
a control group of businesses is appropriate service to
all members of that controlled group of businesses. See
Board of Trustees of the Western Conference of Teamsters
Pension Trust Fund v. H.F. Johnson, Inc., 830 F.2d 1009,
1013-1014 (9th Cir. 1987); IUE AFL-CIO Pension Fund
v. Baker & Williamson, Inc., 788 F.2d 118, 126-128 (3rd
Cir.1986). Therefore, a split between circuits does not
support granting the Petition for Certiorari.

4
II. THE SEVENTH CIRCUIT’S DECISION DID NOT
DECIDE IMPORTANT FEDERAL QUESTIONS
IN A MANNER IN CONFLICT WITH DECISIONS
OF THIS COURT.
The Petitioners assert that the Seventh Circuit’s
decision conflicted with decisions of this Court.1 This is
incorrect.
A.

Mullane is Inapplicable to the Trustees’ Notice
to the Petitioners.

The Seventh Circuit properly held that this Court’s
decision in Mullane v. Central Hanover Bank & Trust
Co., 339 U.S. 306 (1950) is inapplicable to the notice the
Pension Fund provided to the Petitioners. (App. Ex. A at
5a-6a). The Seventh Circuit concluded that due process
standards were satisfied by the service of process upon
each of the Petitioners in the judicial proceedings in the
United States District Court for the Northern District of
Illinois. (App. Ex. A at 6a).

1. The only issues raised in the Seventh Circuit concern the
constitutional appropriateness of the application of liability to
Petitioner control group members, K. Edmier and Sons, LLC,
Thomas Edmier, Individually, William Edmier, Individually,
the William Edmier Trust, Lake Street Realty, Inc., and E & E
Equipment & Leasing, Inc. based on the alleged insufficiency of
notice to these Defendants under constitutional procedural due
process standards. (Brief of Defendants-Appellants at 2, Dkt
#92 at 1 (challenging notice only on behalf of the six “Additional
Defendants” set forth in the preceding sentence)). No challenge
was made to the sufficiency of notice to T & W Edmier Corp, the
E Company and Edmier Corp. or their attorney agent. (Id.)

5
In Concrete Pipe and Products of California, Inc. v.
Construction Laborers Pension Trust Fund, 508 U.S.
602, 617-620 (1993); in the context of resolving whether
due process’ requirements of an impartial decisionmaker
were applicable to a pension plan’s withdrawal liability
assessment, this Court explained that due process
standards were inapplicable to such proceedings. Relying
upon the Court’s analysis in Marshall v. Jerrico, Inc.,
446 U.S. 238, 243-250 (1980); involving the Secretary of
Labor’s assessment of child labor penalties, this Court
concluded that withdrawal liability assessment was an
“enforcement” rather than an “adjudicative” proceeding
and that due process requirements are satisfied through
later proceedings subject to due process standards. This
Court observed:
Not all determinations affecting liability are
adjudicative, and the “ ‘rigid requirements’ ...
designed for officials performing judicial or
quasi-judicial functions, are not applicable to
those acting in a prosecutorial or plaintiff-like
capacity.” [Marshall], 446 U.S., at 248, 100 S.
Ct., at 1616. Where an initial determination
is made by a party acting in an enforcement
capacity, due process may be satisfied by
providing for a neutral adjudicator to “conduct
a de novo review of all factual and legal issues.”
Cf. id., at 245, 100 S.Ct., at 1614; see also id.,
at 247-248, and n. 9, 100 S. Ct., at 1615 and
n.9; cf. Withrow v. Larkin, 421 U.S. 35, 58,
95 S. Ct. 1456, 1470, 43 L.Ed.2d 712 (1975)
(“Clearly, if the initial view of the facts based
on the evidence derived from nonadversarial
processes as a practical or legal matter

6
foreclosed fair and effective consideration at
a subsequent adversary hearing leading to
ultimate decision, a substantial due process
question would be raised”).
Concrete Pipe, 508 U.S. at 618. This Court quoted
Marshall, in noting that:
Of the administrator there we said, “He is not a
judge. He performs no judicial or quasi-judicial
functions. He hears no witnesses and rules
on no disputed factual or legal questions. The
function of assessing a violation is akin to that
of a prosecutor or civil plaintiff.” [Marshall, 446
U.S.] at 247, 100 S. Ct., at 1615.
The Court went on to conclude that pension fund
trustee withdrawal liability assessments were also
purely assessments rather than adjudications, to which
due process requirements required for adjudications
were satisfied through their application in subsequent
adjudication:
This analysis applies with equal force to
the trustees, who, we find, act only in an
enforcement capacity. The statute requires the
plan sponsor, here the trustees, to notify the
employer of the amount of withdrawal liability
and to demand payment, 29 U.S.C. § 1399(b)
(1), actions that bear the hallmarks of an
assessment, not an adjudication. The trustees
are not required to hold a hearing, to examine
witnesses, or to adjudicate the disputes of
contending parties on matters of fact or law.

7
In Marshall, we observed that an employer
“except[ing] to a penalty ... is entitled to a de
novo hearing before an administrative law
judge,” 446 U.S., at 247, 100 S. Ct., at 1615, and
we concluded that this latter proceeding was
the “initial adjudication,” id., at 247, n. 9, 100
S.Ct., at 1615, n. 9. Likewise here, we conclude
that the first adjudication is the proceeding that
occurs before the arbitrator, not the trustees’
initial determination of liability.
Concrete Pipe, 508 U.S. at 619-620 (footnotes omitted).
In this case the Trustees complied with the applicable
legal requirements by notifying the employer of the
amount of withdrawal liability and providing a schedule
of payment, 29 U.S.C. § 1399(b)(1), thereby fulfilling the
requirements of an entity providing an assessment in
an enforcement capacity. The Petitioners failed to avail
themselves of the opportunity afforded them for a fair
adjudication through a demand for arbitration. 2 However,
despite neglecting their right to a fair adjudication in
arbitration, as discussed in Section II-C, infra, they
were provided with an additional full adjudication of their
liability by the District Court who found that they were
members of the control group of employers against whom
withdrawal liability could be assessed. (App. Ex. A, at
6a-7a; Ex. B, at 27a-35a).
In addition to the conclusion compelled by Concrete
Pipe that the due process notice requirements of Mullane
2. See Concrete Pipe, 508 U.S. at 620-630 (holding that
arbitration provided a fair adjudication for employer for purposes
of Due Process).

8
are inapplicable to the Trustees’ enforcement of their
withdrawal liability assessment, the language of Mullane
itself, quoted by Petitioners at pages 12-13 of the Petition
for Writ of Certiorari, demonstrates that the Due Process
clause’s notice requirements are inapplicable to the
Trustees’ withdrawal liability assessment. This language
provides that these notice requirements are to apply “in
any proceeding which is accorded finality.” Mullane, 339
U.S. at 314. As discussed above, the Trustees’ withdrawal
liability determination is not one “which is accorded
finality.” Rather, it is an assessment which is subject to
full review by an arbitrator. Even if arbitration is not
demanded, the assessment is still not final, as the statute
requires that the Trustees obtain a final judgment of
a state or federal court in order for the amount of the
assessment to be collected and accorded “finality.” 29
U.S.C. § 1401(b)(1) (“If no arbitration proceeding has
been initiated pursuant to subsection (a), the amounts
demanded by the plan sponsor under section 1399(b)(1)
of this title shall be due and owing on the schedule set
forth by the plan sponsor. The plan sponsor may bring an
action in State or Federal court of competent jurisdiction
for collection.”) As the Seventh Circuit observed, Mullane
was satisfied because all parties received notice of
the judicial proceeding required before “finality” was
accorded to the Trustees’ assessment. As this case also
demonstrates, it is possible that the Court may choose
to review a party’s liability for the Trustees’ withdrawal
liability in cases where the Court determines there was
not a waiver of an issue due to a failure to arbitrate. (App.
Ex. B at 27a-35a). See also Slotky, 956 F.2d at 1372-1373
(noting that in certain cases Court may resolve issue
of controlled group membership even if party failed to
arbitrate).

9
The non-final nature of a Trustee withdrawal liability
assessment, conduct which does not involve final state
action and which is subject to arbitral and possible
judicial review, contrasts starkly with the cases cited by
Petitioners at pages 13-14 of their Petition, all of which
involved significant state involvement and did not require
a subsequent hearing subject to due process standards
before becoming final. Compare Jones v. Flowers, 547 U.S.
220 (2006) (final government tax sale of property); Tulsa
Professional Collection Services v. Pope, 485 U.S. 476
(1988) (state judicial involvement in final bar on bringing
estate claim); Mennonite Board of Missions v. Adams,
462 U.S. 791 (1983) (final government tax sale of property);
Memphis Light, Gas and Water Division v. Craft, 436 U.S.
1 (1978) (termination of electrical service by government
owned utility). Each of these cases is vastly different from
a Trustee assessment of withdrawal liability, an action
of a private party performed in an enforcement capacity,
rather than a state actor in an adjudicative capacity, and
which does not become final and collectible until after
arbitration or judicial proceedings are instituted.
B. The Standards for Notice Set forth in the
Seventh Circuit’s Slotky Decision Were
Properly Applied and Do Not Violate Due
Process
This Court denied certiorari 25 years ago in Central
States Southeast and Southwest Area Pension Fund
v. Slotky, 956 F.2d 1369, 1372-1375 (7th Cir. 1992), cert.
denied, 511 U.S. 1018 (1994), and there has been nothing
in the interim to suggest that consideration of the holding
of that case is now worthy of this Court’s consideration.

10
Petitioners’ arguments concerning Slotky are in
many respects a reformulation of their position regarding
notice considered in Section II-A, supra. They urge that
Mullane rather than Slotky provides the proper standard
for evaluating the notification the Trustees provided them
of the withdrawal liability assessment. But, as thoroughly
discussed in Section II-A, supra, Concrete Pipe holds
that the standards applicable to a final adjudication under
the due process clause are inapplicable to a pension plan
Trustee assessment of withdrawal liability which is
subject to full arbitral review. The Trustees complied
with the requirements of the statute in providing the
contributing employer with notice conforming to the
statutory requirement of 29 U.S.C. § 1391(b)(1) by
notifying the employer of the amount of the withdrawal
liability, the schedule for payment and demanding
payment in accordance with the schedule. Because all
trades or businesses are treated as a single employer, 29
U.S.C. § 1301(b)(1), the statute does not require notice
to be provided to every possible trade or business which
could be required to pay the controlled group of trades
or businesses’ withdrawal liability. Slotky, 956 F.2d at
1375. Mullane requires no further notice to individual
parties of the assessment, which Concrete Pipe holds is
not an adjudicative proceeding entitled to finality. Further,
nothing in the Due Process clause requires that the
pension plan seek and find individual trades or businesses
and explain to them the legal provisions applicable to
withdrawal liability and the possibility that one business
comprising the employer could be jointly liable for the
withdrawal liability of the employer, see Slotky, 956 F.2d
at 1375, and the Petitioners present no case law, statute
or regulation requiring this type of notice.

11
Because Mullane is inapplicable to pension plan
Trustees’ assessment of withdrawal liability, Slotky is
actually a rule providing additional protection to trades or
businesses which might not be aware that they are part of
a control group of businesses required to litigate control
group membership through the arbitration procedure
that provides the initial adjudication proceeding in a
withdrawal liability case. Concrete Pipe, 508 U.S. at
620 (arbitration is the first adjudication in a withdrawal
liability proceeding, not the trustees’ initial determination
of liability). Thus, Slotky actually provides a protection in
addition to that afforded under the due process clause by
relieving certain trades or businesses from the obligation
to commence the initial adjudication of arbitration if they
could be determined to be unaware of their obligation to
commence arbitration to challenge the assessment made
by the Trustees in their enforcement capacity.
C.

The Petitioners Suffered No Injury Because
the District Court Determined the Merits of
Their Claim and Determined That They Were
Part of the Control Group

None of the Petitioners were injured in this matter
as the District Court determined the merits of their
claim and determined that they were part of the control
group of trade or businesses subject to withdrawal
liability. Once again this question is largely determined
by Concrete Pipe. As previously discussed, the Trustees’
initial determination made in their enforcement capacity,
satisfies due process if there is a later proceeding in which
a neutral adjudicator decides the factual issues and legal
issues on a de novo basis. Concrete Pipe, 508 U.S. at 618.
The Petitioners chose not to institute the arbitration

12
procedure available to them to review the Trustees
initial determination and received a default notice for this
failure. (App. Ex. C at 21a-22a). But, the District Court,
in a judicial proceeding in which the Seventh Circuit
found all Petitioners were properly provided notice, (App.
Ex. A at 6a), chose to apply Slotky to permit a de novo
consideration of their position that they were not liable
as part of the control group of employers. (App. Ex. C at
27a-35a). The Petitioners never presented in their appeal
to the Seventh Circuit a challenge to the merits of this
determination, (Dkt. #14, at 11-23), but argue that this de
novo determination on the merits by the District Court
did not remedy the Trustees’ failure to properly notify
the individual defendants of the withdrawal liability
assessment while admitting that the other parties received
notice.
In rejecting the argument that failure to receive
appropriate initial notice of a withdrawal liability
assessment from the Pension Fund invalidated the
District Court’s judgment, the Seventh Circuit held, at
the very end of its Opinion:
[A]s for the defendants who did not receive the
notice of withdrawal liability but nonetheless
found themselves named in a federal lawsuit,
the district court provided them a full and
fair opportunity to litigate their liability as
members of a controlled group. Nothing about
the path those defendants traveled offends due
process.
(App. Ex. A at 6a-7a). As noted above the Seventh Circuit
also found that the Petitioners were all properly notified

13
of the District Court case in which the determination
was made. (App. Ex. A at 6a). This satisfied due process
standards, as enunciated in Concrete Pipe, through the
extension of due process protection in the subsequent
adjudicative proceeding. Concrete Pipe, 508 U.S. at
618, 619-620. Because proper notice was received in the
adjudicative proceeding in which the determination was
made, the District Court case, this case differs from
Peralta v. Heights Medical Center, 485 U.S. 80 (1988),
in which the parties failed to receive proper notification
in the judicial adjudicative proceeding in which the
determination was made.
It should also be noted that the District Court’s
determination on the merits that the Petitioners were
members of the controlled group of trade or businesses
relieved them from the only prejudice they would have
suffered from lack of notice, the inability to receive a full
and fair opportunity to contest their status as a trade or
business in a proceeding before an impartial adjudicator
due to their waiver of the arbitral remedy. As the Seventh
Circuit recognized, the full and fair opportunity to litigate
their status as a trade or business that was part of the
control group provided them with due process. (App. Ex.
A at 6a-7a).
The Petitioners also argue that they were prejudiced
by a two year delay in providing notice. Initially, this is
factually incorrect, as the District Court found, based on
the summary judgment record, that the withdrawal took
place during 2014 (App. Ex. C at 20a-21a) and that notice
of withdrawal was provided to the Petitioners on April 30,
2015, essentially within a year of withdrawal. Further,
courts have found comparable delays appropriate “in
light of the complexity of the tasks imposed on the Fund

14
under the statute and Congress’ clear intent to help plans
collect withdrawal liability.” ILGWU National Retirement
Fund v. Levy Bros. Frocks, Inc., 846 F.2d 879, 887 (2d
Cir. 1988) (one year delay) (emphasis in original). See also
Brentwood Financial Corp. v. Western Conference of
Teamsters Pension Fund, 902 F.2d 1456, 1459-1460 (two
year delay); Board of Trustees of Trucking Employees
of North Jersey Welfare Fund, Inc.---Pension Fund v.
Canny, 900 F. Supp. 583, 594-595 (N.D. N.Y. 1995) (six
year delay would not support laches claim had it been
raised). As the Ninth Circuit further noted in Brentwood
Financial Corp., 902 F.2d at 1460, no harm is suffered
from such a delay because interest does not accrue until
the date notice of withdrawal is provided.
CONCLUSION
The Petition for Writ of Certiorari does not warrant
Supreme Court consideration as the Petition fails to
establish that the Seventh Circuit’s decision is either
in conflict with those of other Circuits or conflicts with
decisions of this Court. Therefore, the Writ of Certiorari
should be denied.
Respectfully submitted,
Steven Frederick McDowell
Counsel of Record
A rnold and K adjan, LLP
35 E. Wacker Drive, Suite 600
Chicago, Illinois 60601
(312) 236-0415
sfmcdowell@hotmail.com
Attorneys for Respondent

